IN THE SUPREME COURT OF THE UNITED STATES

RINGLAND, MARK
Petitioner
vs.

No:

20-1204

USA
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
March 04, 2021
cc:
AMIR H. ALI
RODERICK & SOLANGE
MACARTHUR
501 H ST., NE
SUITE 275
WASHINGTON, DC 20002
RICHARD H. MCWILLIAMS
ASSISTANT FEDERAL PUBLIC
DEFENDER
222 SOUTH 15TH STREET
SUITE 300N
OMAHA, NE 68102

